                            Office of the Inspector General

August 28, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Identification of Fugitives Receiving Supplemental Security Income Payments
(A-01-98-61013)


Attached is a copy of our final report. Our objective was to determine whether the
Social Security Administration is identifying and preventing Supplemental Security
Income benefit payments to fugitive felons.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                               James G. Huse, Jr.


Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




    IDENTIFICATION OF FUGITIVES
     RECEIVING SUPPLEMENTAL
    SECURITY INCOME PAYMENTS

   August 2000      A-01-98-61013




   AUDIT REPORT

                                        Executive Summary
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) is
identifying and preventing Supplemental Security Income (SSI) benefit payments to
fugitive felons.

BACKGROUND

Title XVI of the Social Security Act was amended on August 22, 1996 by section 202 of
the Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public
Law 104-193), prohibiting SSI payments to fugitive felons. Specifically, section 1611(e)
of the Social Security Act was amended to make a person ineligible to receive SSI
benefits during any month in which the person is:

   •	 fleeing to avoid prosecution for a crime which is a felony (or in New Jersey, a
      high misdemeanor) under the laws of the place from which the person flees;

   •	 fleeing to avoid custody or confinement after conviction for a crime which is a
      felony (or in New Jersey, a high misdemeanor) under the laws of the place from
      which the person flees; or

   •   violating a condition of probation or parole imposed under Federal or State law.

In July 1998, we issued the results of our survey of the 50 States and the District of

Columbia regarding the availability of fugitive files that are not currently provided to

SSA. In that report, we stated our intent to proceed with further audit work to:

(1) secure computer matching agreements with 10 States, (2) obtain fugitive files from

those 10 States, and (3) identify those fugitive felons receiving SSI payments who

would not be identified through SSA’s planned match with the National Crime

Information Center (NCIC) Wanted Person’s file. In this report, we present the results

of our additional audit work.


A computer matching agreement detailing our initiative to match a sample of State

fugitive files with SSA’s records was approved by SSA on December 22, 1998; and

notification of the matching program was posted in the Federal Register on

January 8, 1999. On January 14, 1999, we provided the computer matching agreement

to our 10 sample States for approval and requested the States’ fugitive files.





Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                          i
RESULTS OF REVIEW
SSA and the Office of the Inspector General, Office of Investigations (OI) identified
3,948 fugitives receiving SSI benefits in Fiscal Year 1999 without the use of computer
matching. However, we believe that computer matching is a more effective method of
preventing SSI payments to fugitive felons. Based on the results of our statistical
sample, we estimate that at least 24,700 fugitives were incorrectly paid at least
$76 million in SSI payments since Public Law 104-193 took effect in August 1996
prohibiting such payments. Further, we estimate that SSA will continue to pay fugitives
at least $30 million annually in SSI payments if State fugitive files are not used to
prevent such payments.

Although SSA entered into a Memorandum of Understanding with NCIC and obtained
its Wanted Person’s file in March 2000, this will not identify all fugitive felons.
Specifically, we determined that only about 28 percent of the States’ fugitive felons are
entered into NCIC. Therefore, computer matching with both NCIC and the States is
necessary to identify all fugitive felons receiving SSI benefits. Since SSA has recently
received the NCIC file and begun matching this file against SSA’s records, that portion
of the annual savings which represents fugitive felons who are entered into both NCIC
and the State’s fugitive records will now be realized.

Additionally, SSA should coordinate its fugitive efforts with the United States
Department of Agriculture (USDA), which has a project underway in 23 States to
disqualify food stamp recipients who are fugitive felons. As of February 2000, the
USDA project had resulted in over 5,000 arrests of fugitive felons and these fugitives
were removed from the Food Stamp program.

Our experience with the States in our sample shows that some States were able to
accommodate our request for fugitive data quickly and were very cooperative, while
other States were resistant to providing the data. However, the States do have
incentives to provide this data to SSA. Specifically, States also pay benefits to SSI
recipients.

RECOMMENDATIONS

To ensure that SSA suspends SSI payments to fugitive felons, we recommend that
SSA:

�	 reach agreement with the USDA’s OIG to share fugitive felon information,
   and

�	 reach agreement with State agencies, which either do not enter all fugitive
   felon data into NCIC or provide data to the USDA, to obtain their fugitive
   information in an electronic format on a routine basis.




Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                          ii
AGENCY COMMENTS

In response to our draft report, SSA agreed with all of our recommendations. (See
Appendix C for SSA’s comments.)




Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                  iii

                                                           Table of Contents

                                                                                                                 Page


INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 4

    Fugitives Receiving SSI Benefits ...................................................................... 5

    NCIC Fugitive Data ........................................................................................... 6

    Other Federal Fugitive Felon Projects............................................................... 8

    State Incentives To Provide Fugitive Data To SSA........................................... 9

         �    State Funds Paid To Fugitives .............................................................. 9

         �    Fugitive Arrests..................................................................................... 10

RECOMMENDATIONS ........................................................................................ 12

APPENDICES


Appendix A – Sampling Methodology and Results


Appendix B – Fugitive Matching Program Issues


Appendix C – Agency Comments


Appendix D – OIG Contacts and Staff Acknowledgments


Appendix E – SSA Organizational Chart





Identification of Fugitives Receiving SSI Payments (A-01-98-61013)
                                                                     Acronyms

 EM                Emergency Message

 EVS               Enumeration Verification System

 NCIC              National Crime Information Center

 OI                Office of Investigations

 OIG               Office of the Inspector General

 P.L.              Public Law

 SSA               Social Security Administration

 SSI               Supplemental Security Income

 SSN               Social Security Number

 SSR               Supplemental Security Record

 USDA              United States Department of Agriculture





Identification of Fugitives Receiving SSI Payments (A-01-98-61013)
                                                                       Introduction

OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA) is
identifying and preventing Supplemental Security Income (SSI) benefit payments to
fugitive felons.1

BACKGROUND

Title XVI of the Social Security Act established the SSI program in 1972 to provide
income to financially needy individuals who are aged, blind, or disabled. On August 22,
1996, the Personal Responsibility and Work Opportunity Reconciliation Act of 1996
(Public Law 104-193) amended the Social Security Act to prohibit SSI payments to
fugitive felons. Specifically, section 202 of Public Law (P.L.) 104-193 amended section
1611(e) of the Social Security Act to make a person ineligible to receive SSI payments
during any month in which the person is:

      •	 fleeing to avoid prosecution for a crime which is a felony2 (or in New Jersey, a
         high misdemeanor) under the laws of the place from which the person flees;

      •	 fleeing to avoid custody or confinement after conviction for a crime which is a
         felony (or in New Jersey, a high misdemeanor) under the laws of the place from
         which the person flees; or

      •   violating a condition of probation or parole imposed under Federal or State law.

With input from the Office of the Inspector General (OIG), Office of Investigations (OI),
SSA issued initial policy guidelines concerning fugitive felon investigations in October
1996. Then, based on its experiences with early fugitive cases, SSA and OI developed
comprehensive procedural guidelines for the conduct of fugitive felon investigations.
These procedures were issued by SSA in February 19983 and have been updated
several times, most recently in February 2000.4 Specific issues addressed in these
procedures include confirming the fugitive’s identify, determining current SSI payment
status, assisting in the apprehension of fugitives receiving SSI benefits, and suspending
SSI benefit payments.

1
 Throughout the report when we use the term “fugitive felons,” we are referring to those fugitives and
parole/probation violators specifically prohibited from receiving SSI benefits under P.L. 104-193.
2
    A felony is a serious offense that is usually punishable by imprisonment for more than 1 year.
3
  Program Operations Manual System Emergency Message (EM) 98-038 titled “SSI Procedure – Office of
the Inspector General Fugitive Felon Projects” dated February 18, 1998.
4
    EM 00010 - “SSI Procedures - Fugitive Felons and Parole or Probation Violators,” February 17, 2000.


Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                        1
In July 1998, we issued the results of our survey of the 50 States and the District of
Columbia regarding the availability of fugitive files that were not being provided to SSA.5
In that report, we stated our intent to proceed with further audit work to: (1) secure
computer matching agreements with 10 States; (2) obtain fugitive files from those
10 States; and (3) identify those fugitive felons receiving SSI payments who would not
be identified through SSA’s planned match with the National Crime Information Center
(NCIC) Wanted Person’s file.6 This report presents the results of our additional audit
work.

A computer matching agreement detailing our initiative to match a sample of State
fugitive files with SSA’s records was approved by SSA’s Commissioner on
December 22, 1998; and notification of the matching program was posted in the
Federal Register on January 8, 1999. We provided the computer matching agreement
to our 10 sample States7 for approval and requested the States’ fugitive files.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

•	 Prepared a computer matching agreement8 for the disclosure of fugitive felon
   information between State law enforcement agencies and SSA.

•     Selected a random sample of 10 States in which to conduct computer matching.9

•     Obtained fugitive files from the 10 States between February 1999 and April 2000.

•	 Verified each fugitives’ name, Social Security number (SSN), sex, and date of birth
   using SSA’s Enumeration Verification System (EVS) to ensure that the fugitives’
   identities agreed with SSA’s records.

5
 OIG, Office of Audit report titled “Survey Results for Identification of Fugitives Receiving Benefits”
(A-01-98-63002).
6
    The NCIC Wanted Person’s file contains a portion of the felony warrants from the 50 States.
7
 The 10 States selected were Alabama, Colorado, Idaho, Illinois, Iowa, Maine, Nebraska, New Mexico,
Oregon, and Texas.
8
  A computer matching agreement is necessary under the Computer Matching and Privacy Protection Act
of 1988 in order to match State fugitive files with SSA’s records when the primary purpose of such a
match is SSI benefit suspension. The agreement also establishes the conditions, safeguards and
procedures for the disclosure to SSA by other agencies of information on individuals who are fugitives
from justice or parole or probation violators. While SSA estimated it would take 6 months to approve a
computer matching agreement for our use in obtaining State fugitive files, SSA took approximately 1 year
to approve the agreement. Our experience indicates a need to streamline the computer matching
agreement process.
9
 One of our initial 10 States (South Dakota) was unable to provide a fugitive file so we randomly selected
an alternate State (Alabama).


Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                        2
•	 Matched the verified SSNs against a Supplemental Security Record (SSR) extract
   file of recipients eligible for payments since August 1996.

•	 Separated, when necessary, the fugitives wanted for felonies from those fugitives
   wanted for misdemeanor charges.10 This separation was conducted on the records
   that were verified through EVS and which matched a SSR in our file.

•	 Determined whether fugitives receiving SSI payments were listed on the NCIC
   Wanted Person’s file.

•	 Using a multi-stage sampling design, confirmed a sample of 458 fugitive warrants
   with the responsible law enforcement agencies to ensure that the SSI recipients
   were fugitive felons. For the sample fugitives with confirmed warrants we calculated
   the amount of SSI benefits paid to each fugitive. Our calculation included payments
   from the date of the felony warrant through the date the case was reviewed by the
   OIG. If the warrant was issued prior to enactment of P.L. 104-193, we only included
   payments made after the effective date of this law (August 1996). (See Appendix A
   for details of our sampling methodology.)

We conducted our review between January 1999 and May 2000 in Boston,
Massachusetts. We conducted our review in accordance with generally accepted
government auditing standards.




10
  Five States (Alabama, Colorado, Maine, Idaho, and Oregon) provided files containing fugitive felons
only. Therefore, we did not have to separate the fugitives wanted for misdemeanor charges prior to
selecting our sample of cases to review.


Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                      3
                                                   Results of Review

SSA and OI identified 3,948 fugitives receiving SSI benefits in FY 1999 without the use
of computer matching.11 However, we believe that computer matching is a more
effective method of preventing SSI payments to fugitives. We estimate that at least
24,700 fugitives were incorrectly paid at least $76 million in SSI payments from the date
P.L. 104-193 took effect (August 1996)12 through the date we reviewed the sample
cases. Further, we estimate that SSA will continue to pay fugitives at least $30 million
in SSI payments each year that State fugitive files are not used to prevent such
payments.

SSA’s planned computer match with NCIC will not identify all fugitive felons.
Specifically, we determined that only about 28 percent of the States’ fugitive felons are
entered into NCIC. Therefore, computer matching with both NCIC and the States is
necessary to identify all fugitive felons receiving SSI benefits. Additionally, SSA should
coordinate its fugitive efforts with the United States Department of Agriculture (USDA),
which has a project underway in 23 States to disqualify food stamp recipients who are
fugitive felons. As of February 2000, the USDA project had resulted in over
5,000 arrests of fugitive felons and these fugitives were removed from the Food Stamp
program.

Our experience with the States in our sample shows that some States were able to
accommodate our request for fugitive data quickly and were very cooperative, while
other States were resistant to providing the data. However, the States do have
incentives to provide this data to SSA. Specifically, States pay supplemental funds to
SSI recipients and SSA’s OI can assist the States in locating the fugitives.




11
  OI received paper referrals from local law enforcement contacts and manually queried SSA’s data
bases to determine whether the fugitives were receiving SSI payments.
12
  In a memorandum dated February 17, 2000, SSA issued instructions, which included the mandate that
administrative finality be applied to overpayments made to fugitive felons. Administrative finality limits the
overpayment period to 2 years.


Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                           4
FUGITIVES RECEIVING SSI BENEFITS

                                                            Our one-time computer
                        Sample Results
                                                            match between 10 State
            Fugitive Felons Receiving SSI Benefits
                                                            fugitive files and SSA’s
       24% NOT                                              records identified
       Fugitive                          76% Fugitive       7,716 fugitive felons
                                         Felons             potentially receiving SSI
       Felons
                                         Receiving          payments. We sampled
       Receiving
                                         SSI Benefits	      and reviewed 458 of the
       SSI Benefits
                                                            7,716 fugitives and found
                                                            that 349 (76 percent) of
                                                            the sampled fugitives
                                                            were still wanted for
                                                            felony charges and
received SSI benefit payments. These 349 fugitives received over $2.46 million in SSI
payments since P.L. 104-193 took effect.

For each of the 458 fugitives in our sample, we contacted the responsible law
enforcement agency and confirmed that 349 fugitives were wanted for a felony or
parole/probation violation after P.L. 104-193 was enacted. For the remaining
109 fugitives, 94 did not receive SSI payments while a fugitive felon13 and 15 warrants
could not be confirmed with law enforcement officials. Our results by State are shown
in the following table.




13
   Ten were in H80 (hold) status because SSA had not completed processing of the SSI applications,
14 were misdemeanor warrants, 3 either had no record of the warrant or the warrant was cancelled, and
67 did not receive SSI payments after the date of their warrants.


Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                      5
                                            Fugitive Felons
                                                      Sample          Amount of SSI          Not a
                     Number                         Cases with        Benefits Paid         Fugitive
                  Receiving SSI                      Confirmed         to Fugitives          Felon
                  Benefits Based        Number       Warrants              with            Receiving
                   on Computer           in OIG       Paid SSI          Confirmed             SSI
          State       Match             Sample        Benefits           Warrants          Payments
     Alabama             244                50            35              $155,781             15
     Colorado            681                50            39               307,830             11
     Idaho                51                51            43               343,070              8
     Illinois          2,267                50            34               207,836             16
     Iowa                244                50            40               247,260             10
     Maine                70                70            49               353,103             21
     Nebraska             14                14            13                68,949              1
     New Mexico           23                23            19               135,844              4
     Oregon            1,308                50            40               446,603             10
     Texas             2,814                50            37               194,979             13
     TOTAL             7,716              458           349             $2,461,255            109

For the 349 fugitives with confirmed warrants who received SSI payments after

P.L. 104-193 was enacted, 225 were still receiving payments at the time of our review.

An example of a fugitive case in our review involves an individual who had a warrant

issued for his arrest in November 1993 for a felony charge of burglary. This fugitive

felon started receiving SSI benefits in July 1998. In May 1999, we confirmed that the

recipient was still wanted on the felony charge and determined that about $5,500 in SSI

benefits were paid to him after P.L. 104-193 took effect in August 1996. We turned this

case over to the responsible OI Special Agent, who worked the case in conjunction with

SSA’s regional Fugitive Felon Coordinator, and as a result, the SSI benefits were

suspended and an overpayment was assessed.14


NCIC FUGITIVE DATA
SSA and OI have been working with officials from NCIC to match the NCIC Wanted
Person’s File (approximately 500,000 records) against SSA’s files. SSA and OI have
worked with NCIC to develop a format for obtaining its fugitive data, and SSA received
test data from NCIC to assist SSA’s computer systems development effort. On
March 6, 2000, an agreement to share fugitive information was approved by SSA and
NCIC. On March 14, 2000, SSA received the first file which contained 86,568 fugitive
felon records. SSA expects to obtain the remaining fugitive records from NCIC in two




14
  We referred all fugitive felon cases identified through our computer match to SSA and OI, with the
exception of fugitive cases from Illinois, Idaho and Nebraska. Although these three States provided
fugitive information, the States did not sign the required computer matching agreements that would allow
SSA to suspend the SSI payments and allow OI to pursue apprehension of the fugitives.


Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                         6
additional phases – one covering parole and probation violators and the other covering
the remaining fugitive felons. Thereafter, computer matching of the entire NCIC
Wanted Person’s file is expected to occur on a monthly basis.

While SSA’s match with the NCIC Wanted Person’s file will assist SSA in identifying
fugitives receiving SSI benefits, it will not identify all fugitive felons receiving SSI
payments. The NCIC file contains warrant information, supplied from Federal and State
law enforcement agencies, for individuals who have active felony and serious
misdemeanor warrants. Prior to May 1998, NCIC only accepted extraditable15
warrants. NCIC made a policy change effective May 1998 to accept felony warrants
without an extradition requirement. Non-felony warrants still require an indication that
the originating agency will extradite.

Our analysis of 10 State fugitive files revealed that only a portion of the fugitive felon
records were entered into the NCIC system. We found that approximately 28 percent
of fugitive records were entered into NCIC, while the remaining 72 percent were only
entered into the States’ local systems. Details are shown in the following table.

                                                        Fugitive Felons
                            Population
                            Receiving
                                SSI             Number on           Number Not           Portion Not
            State           Payments              NCIC               on NCIC              on NCIC
     Alabama                    244                 243                   1                   0%
     Colorado                   681                 349                 332                 49%
     Idaho                       51                   0                  51                100%
     Illinois                 2,267                 544               1,723                 76%
     Iowa                       244                  42                 202                 83%
     Maine                       70                  70                   0                   0%
     Nebraska                    14                   0                  14                100%
     New Mexico                  23                   0                  23                100%
     Oregon                   1,308                 667                 641                 49%
     Texas16                  2,814                281                2,533                 90%
     TOTAL                    7,716               2,196               5,520                 72%

Although 1 of the 10 States in our sample (Maine) enters all its fugitive felon records
into NCIC, the remaining 9 States do not. Three States’ (Idaho, Nebraska, and New
Mexico) fugitive files exclude those fugitives entered into NCIC. The six remaining

15
  An extraditable warrant is used when a State is willing to retrieve a fugitive located in another State, and
a nonextraditable warrant is used when a State is not willing or able to retrieve a fugitive located in another
State.
16
  Not all Texas fugitive felon records are entered into NCIC. The Texas fugitive file did not contain a field
that enabled us to determine whether the fugitive’s record was entered into NCIC. In February 1999,
Texas provided a file of 362,069 felony and misdemeanor warrants. In February 1998, a year earlier,
39,007 fugitive felon warrants from Texas were entered into NCIC. This is approximately 10 percent of
the entire Texas fugitive file from February 1999.


Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                           7
States (Alabama, Colorado, Illinois, Iowa, Oregon, and Texas) maintain fugitive files
that include all State fugitive warrants, including those that are also entered in NCIC.
For example, one State’s fugitive file contains an NCIC indicator that shows whether the
record is entered into NCIC in addition to being in the State’s file. This State’s file
showed that 544 of its 2,267 fugitive felons receiving SSI payments were entered into
both the State file and the NCIC Wanted Person’s file. The remaining 1,723 fugitive
felons were only entered in the State’s file; and therefore, they would not be identified
through a match with NCIC.

Since NCIC does not contain information on all fugitive felons, computer matching with
State fugitive files, as well as NCIC, will be necessary to ensure that a comprehensive
population of fugitives is identified and matched against SSA’s records.

OTHER FEDERAL FUGITIVE FELON PROJECTS
In addition to amending the Social Security Act to prohibit SSI payments to fugitive
felons, P.L. 104-193 also amended provisions of the Food Stamp program to disqualify
fugitive felons from receiving food stamps. Specifically, section 821 of P.L. 104-193
states,

     “No member of a household who is otherwise eligible to participate in the
     Food Stamp program shall be eligible ... during any period during which the
     individual is — (1) fleeing to avoid prosecution, or custody or confinement
     after conviction ... for a crime ... that is a felony ... or (2) violating a condition
     of probation or parole imposed under a Federal or State law.”

The Food Stamp program is administered by State public assistance offices, but is
sponsored by the USDA, which pays 100 percent of the benefit costs of the program.
This program helps low-income families purchase food.

In early 1997, the USDA OIG started a nationwide initiative designed to locate and
apprehend fugitives who are food stamp recipients. Specifically, the USDA’s OIG
matches the food stamp recipient rolls with fugitive felon warrants. The USDA OIG’s
Semiannual Report to Congress, dated November 1999, reported that its fugitive felon
project resulted in 4,801 arrests as of September 30, 1999. Furthermore, in February
2000, USDA OIG staff informed us that the agency’s arrest total was now over
5,000 fugitive felons. In addition to the arrests, these fugitives were removed from the
Food Stamp program. The USDA fugitive felon project is an on-going initiative and, as
                                                                           17
of September 1999, it encompassed 42 metropolitan areas in 23 States.

We learned that our own work to identify fugitive felons receiving SSI payments
overlapped USDA’s efforts, and we believe that the two agencies should coordinate
their efforts to obtain State fugitive information. Specifically, one State in our sample
requested to provide its fugitive file in the same format that it provided it to the local
17
  The 23 States are: Arizona, California, Colorado, Delaware, Georgia, Kansas, Kentucky, Illinois,
Maryland, Massachusetts, Minnesota, Mississippi, Missouri, New Jersey, New York, Ohio, Oklahoma,
Pennsylvania, South Dakota, Texas, Virginia, Washington, and Wisconsin.


Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                   8
USDA OIG office. Another State was hesitant to provide a fugitive file because it was
having problems putting its file in the format requested by USDA’s OIG. Once we
informed this State that it did not have to put its fugitive file into a specified format, it
sent us the data.18 Furthermore, during our survey of the 50 States in 1998 to identify
fugitive information that was not being provided to SSA, several States expressed a
willingness to provide data to us if it would only entail making a copy of the data it
already provides to the Food Stamp program.

STATE INCENTIVES TO PROVIDE FUGITIVE DATA TO SSA
SSA needs State law enforcement agencies to provide fugitive felon information on a
routine basis in order to prevent SSI benefit payments to fugitives under the provisions
of P. L. 104-193. Our experience with the 10 sample States shows that some States
were able to accommodate our request for fugitive data more quickly than other States.
Due to workload preferences, staffing levels, budget restraints, and other issues vying
for the State’s attention, SSA’s request for fugitive information on a routine basis and in
a set format may not be a high priority for the States. However, the States do have
incentives to provide this data to SSA. Specifically, States supplement the Federal SSI
payment with State funds.

State Funds Paid To Fugitives

In addition to Federal SSI funds, State funds are at risk if the States do not provide SSA

with fugitive felon information since most States provide supplementary payments to

SSI recipients. Since the termination of SSI benefits to fugitive felons under

P.L. 104-193 may also trigger the termination of the State supplement, the States may

achieve financial savings as a result of sharing fugitive information with SSA. State

supplements vary from State to State and provide additional income based on

differences in regional living costs. State supplements may be issued directly by the

State or may be combined with the SSI payment by mutual agreement of the State and

SSA (i.e., SSA Federally administers the State supplement).


Our review of the 349 fugitive felons with confirmed warrants receiving SSI benefits

showed that 134 of the fugitives were receiving SSI benefits in States for which SSA

administered the supplementary payments. We found that 93 of these 134 fugitive

felons (69 percent) received approximately $157,000 in State supplements. An

additional 215 fugitives with confirmed warrants received SSI payments in States in

which the State supplements, if any, were issued directly by the States. As a result, we

did not have a record of State supplements paid to these fugitive felons.


Also, savings to the States may result from the termination of the fugitive’s Medicaid

benefits. Specifically, many States provide Medicaid eligibility based on SSI eligibility

without regard to whether the individual meets the State’s definition of “medically

needy.” Medicaid is a jointly funded cooperative venture between the Federal and

State governments that pays for medical assistance for certain individuals and families


18
     For the purposes of our audit, we did not request that the States provide their data in a standard format.


Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                            9
with low income and resources. The Federal government pays for at least 50 percent
of Medicaid costs and State governments pay the remainder. The average cost of
Medicaid in 1996 was $3,369 and the States’ portion of its Medicaid cost ranged from
22 percent to 50 percent. Although we did not determine the number of fugitive felons
in our sample who received Medicaid benefits, States may be able to achieve cost
savings in this area through SSA’s termination of SSI benefits to fugitive felons.

Fugitive Arrests

Under the provisions of P. L. 104-193, SSA “... shall furnish any Federal, State, or local
law enforcement officer, upon the written request of the officer, with the current
address, Social Security number, and photograph (if applicable) of any recipient of [SSI]
benefits” who is a fugitive felon. During the course of OI investigations between August
1996 (the effective date of P.L. 104-193) and October 12, 1999, OI Special Agents
assisted Federal, State, and local law enforcement officials in the arrest of 1,853
fugitive felons. These arrests resulted from the cooperation between SSA, OIG, and
Federal, State, and local law enforcement officials. Specifically, law enforcement
officials provided the OIG with fugitive information. OIG Special Agents queried the
SSR to determine whether the fugitive was receiving SSI benefits. If the fugitive was
receiving SSI benefits, the OIG opened an investigation, confirmed the warrant with the
responsible law enforcement agency, and assisted law enforcement officials in locating
and apprehending the fugitive.

We found that 128 of the 349 fugitives with confirmed warrants received SSI payments
in the same State that had issued the felony warrants for the fugitives. The remaining
221 fugitives were paid SSI benefits while residing in other States. The following table
shows the percentage of fugitives receiving SSI benefits while residing in a State other
than the one that issued the felony warrant.

                                        Number of Fugitives           Portion of Fugitives
       State that       Number of        Paid SSI Benefits           Paid SSI Benefits in a
      Issued the        Fugitives         in a State Other             State Other Than
        Felony           Paid SSI       Than the State that          the State that Issued
        Warrant          Benefits       Issued the Warrant                the Warrant
  Alabama                     35                 15                           43%
  Colorado                    39                 33                           85%
  Idaho                       43                 36                           84%
  Illinois                    34                 12                           35%
  Iowa                        40                 22                           55%
  Maine                       49                 30                           61%
  Nebraska                    13                 12                           92%
  New Mexico                  19                 13                           68%
  Oregon                      40                 33                           83%
  Texas                       37                 15                           41%
        TOTAL                349                221                            63%




Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                            10
According to SSA’s address information (based on where the SSI benefits are paid),
the 221 fugitive felons shown above are residing in 45 different States, even though the
warrant information was obtained from only 10 States. For example, one of the fugitive
felons wanted by the State of Maine was receiving SSI payments in Florida. After
providing their file to us, OI investigated the case and was able to give Maine State
Police the recipient’s Florida address. The fugitive was then apprehended in Florida as
a result of SSA’s address information being provided to Maine law enforcement
officials. Similarly, when additional States provide their fugitive information, SSA’s
address information could assist law enforcement agencies in locating and
apprehending the fugitives.




Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                    11
                                            Recommendations

To ensure that SSA suspends SSI payments to fugitive felons, we recommend that
SSA:

1. Reach agreement with the USDA’s OIG to share fugitive felon information.

2. 	 Reach agreement with State agencies, which either do not enter all fugitive
     felon data into NCIC or provide data to the USDA, to obtain their fugitive
     information in an electronic format on a routine basis.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. Specifically,
SSA will contact the USDA to determine the feasibility of coordinating fugitive efforts
with them. Also, SSA expects to institute matching agreements and receive fugitive
data on a regular basis from State and local law enforcement agencies in the months
ahead.




Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                        12
                                                                Appendices





Identification of Fugitives Receiving SSI Payments (A-01-98-61013)
                                                                                      Appendix A

Sampling Methodology and Results
From the Social Security Administration (SSA), we obtained an extract from the
Supplemental Security Record (SSR) of all individuals eligible for Supplemental
Security Income (SSI) payments1 between August 1996 and January 2000.2 We also
obtained fugitive files from a random sample of 10 States.3 For each State, we verified
each fugitives’ name, Social Security number (SSN), sex, and date of birth using SSA’s
Enumeration Verification System (EVS) to ensure the fugitives’ identities agreed with
SSA’s records. We then matched the verified SSNs against our SSR extract. The
table below shows the number and type of fugitive warrants provided by each State.

                         Date Fugitive             Fugitives in               Type of Fugitive
                         File Received            Original State             Warrants in State
           State           from State                  File                         File
    Alabama              January 2000                  4,295             Felons
    Colorado                April 2000                17,048             Felons
    Idaho                 August 1999                     733            Felons
    Illinois             February 1999               248,311             Felons and misdemeanors
    Iowa                    May 1999                  38,702             Felons and misdemeanors
    Maine                 March 1999                   1,158             Felons
    Nebraska              March 1999                  21,457             Felons and misdemeanors
    New Mexico           February 1999                37,706             Felons and misdemeanors
    Oregon                  April 2000               117,775             Felons
                                                              4
    Texas                February 1999               362,069             Felons and misdemeanors

Five of our 10 State fugitive files consisted of both felonies and misdemeanors.
Therefore, we had to separate the felons from the misdemeanors based on the
                                    5
warrant’s four-digit offense code. The following table shows the offense codes and the
number of fugitives receiving SSI payments based on our computer match.

1
 We included all SSR records with pay status codes C01 (current pay), E01 (eligible but no payment due),
E02 (eligible for payments in that month but not due a payment), and H80 (hold for early input-
allowance/denial pending).
2
  We obtained an SSR data extract for the period August 1996 to March 1999 and used it to match the
fugitive files from seven States. In January 2000, we obtained an updated SSR extract. We used this
updated file to match the remaining three State fugitive files instead of using the March 1999 extract.
3
 The 10 States were randomly selected from a population of 46 States (including the District of
Columbia). At the time of our review, the remaining five States were unable to provide electronic fugitive
data to us. One of our 10 States (South Dakota) was unable to provide a fugitive file, so we randomly
selected an alternate State (Alabama).
4
 We were only able to use 184,672 of the 362,069 Texas fugitive records because of incomplete or
duplicate (alias) information.
5
 Some States had a miscellaneous field on their fugitive files, which described the fugitive’s criminal
charges in detail. We reviewed this field to refine our classification of felonies and misdemeanors.
Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                               A-1
                                                                                Fugitives with
            Offense Code                    Offense Description                   Offense
      Codes starting with 09          Homicide                                        26
      Codes starting with 10          Kidnapping                                       9
      Codes starting with 11          Sexual Assault                                  59
      Codes starting with 12          Robbery                                         59
      Codes starting with 13          Assault                                        552
      Codes starting with 20          Arson                                           15
      Codes starting with 21          Extortion                                        1
      Codes starting with 22          Burglary                                       224
      Codes starting with 23          Larceny                                        169
      Codes starting with 24          Stolen Vehicles                                139
      Codes starting with 25          Forgery                                         66
      Codes starting with 26          Fraud                                          123
      Codes starting with 28          Receiving Stolen Property                       15
      Codes starting with 29          Damaged Property                                 4
      Codes starting with 35          Dangerous Drugs                             1,200
      Codes starting with 36          Sex Offense                                     14
      Codes starting with 37          Obscenity                                        1
      Codes starting with 38          Family Offense                                  20
      Codes starting with 48          Obstructing the Police                          10
      Codes starting with 49          Flight-Escape                                   92
      5011                            Parole Violation                            1,318
      5012                            Probation Violation                         2,945
      All other codes starting        Obstructing Judiciary,                         517
      with 50                         Congress, Legislature, or a
                                      Commission
      Codes starting with 51          Bribery                                           1
      Codes starting with 52          Weapon Offenses                                  15
      Codes starting with 53          Public Peace                                      1
      Codes starting with 54          Traffic Offenses                                 41
      Codes starting with 55          Health-Safety                                     1
      Codes starting with 57          Invasion of Privacy                               1
      Codes starting with 58          Smuggling                                         1
      Codes starting with 70          Crimes Against Person                             2
      Codes starting with 71          Property Crimes                                   8
      Codes starting with 81          Juvenile Offenders                                2
                                                             6
      No code provided                Other Felony Charges                             65
                                                           TOTAL                    7,716




6
 Two States did not provide specific information on the fugitives’ criminal charges. However, the
65 fugitives identified for these 2 States were wanted for felony charges.

Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                            A-2
Once we isolated the fugitive felons receiving SSI benefits, we selected a random
sample of 50 fugitive felons from each State. If a State had fewer than 50 fugitive
felons receiving SSI benefits, we reviewed all of the cases for that State. In one
instance, we identified 51 fugitive felons receiving SSI benefits for a State and reviewed
all 51 rather than select a random sample of 50. For one State (Maine), our initial
computer match identified 58 fugitive felons receiving SSI benefits and we reviewed all
58 cases. After this initial match, Maine provided an updated fugitive file and we
identified and reviewed an additional 12 cases for a total population of 70 fugitives.

For each sample case, we contacted the responsible law enforcement agency to
confirm that the fugitive was wanted on a felony warrant or parole/probation violation.
For fugitives confirmed to be wanted on felony or parole/probation violation charges, we
calculated the amount of SSI benefits paid since Public Law 104-193 took effect,
prohibiting such payments. Our sample results, projections and estimates are detailed
in the tables below and on page A-4.


                              Sample Results and Attribute Projections for
                             Fugitives Paid SSI Benefits Since August 1996
                                                                     Number of            Projection of
                                                                    Fugitives in           Number of
                            Population                              Sample Paid          Fugitives Paid
             State              Size            Sample Size         SSI Benefits          SSI Benefits
    Alabama                        244                 50                 35                    171
    Colorado                       681                 50                 39                    531
    Idaho                           51                 51                 43                     43
    Illinois                    2,267                  50                 34                  1,542
    Iowa                           244                 50                 40                    195
    Maine                           70                 70                 49                     49
    Nebraska                        14                 14                 13                     13
    New Mexico                      23                 23                 19                     19
    Oregon                      1,308                  50                 40                  1,046
                                       7
    Texas                       2,814                  50                 37                  2,082
    10 State Total              7,716                458                 349                  5,691
                                         Projection to 46 States in Population               26,180
                                                        Projection Lower Limit               24,767
                                                        Projection Upper Limit               27,593
     Notes: All projections are at the 90-percent confidence level.




7
  Texas was the first fugitive file received and we did not remove the fugitives with multiple warrants prior
to selecting our sample of 50 fugitives (i.e., if a fugitive was wanted on three different felony warrants, he
appeared three times in our population). We refined our sampling technique as a result of this, and for the
succeeding States in our sample, we removed the duplicate warrants prior to selecting our sample.
Specifically, if a fugitive was wanted on three different felony warrants, this fugitive was only listed once in
our population. For Texas, we selected our sample of 50 from the population of 2,896 (which included
duplicate warrants). An unduplicated population would have included 2,814 fugitives. In reviewing our
sampled Texas cases, if the fugitive had more than one warrant, we only included the warrant randomly
selected in calculating the SSI funds overpaid.

Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                                 A-3
                                 Sample Results and Dollar Projections of
                                   SSI Payments Made Since August 1996
                                                                    SSI Benefits
                                                                      Paid to      Projection of SSI
                             Population                             Fugitives in   Benefits Paid to
             State               Size           Sample Size           Sample          Fugitives
     Alabama                        244                 50             $155,781           $760,214
     Colorado                       681                 50              307,830          4,192,638
     Idaho                           51                 51              343,070            343,070
     Illinois                     2,267                 50              207,836          9,423,299
     Iowa                           244                 50              247,260          1,206,628
     Maine                           70                 70              353,103            353,103
     Nebraska                        14                 14               68,949             68,949
     New Mexico                      23                 23              135,844            135,844
     Oregon                       1,308                 50              446,603         11,683,145
     Texas                        2,814                 50              194,979         10,973,394
     10 State Total               7,716               458            $2,461,255        $39,140,284
                                         Projection to 46 States in Population       $180,045,309
                                                        Projection Lower Limit         $76,418,468
                                                         Projection Upper Limit      $283,672,150
      Note: All projections are at the 90-percent confidence level.

                                Sample Results, Projection and Estimate of
                                SSI Benefits Expected to be Paid Annually
                                                 Number of
                                                  Fugitives      Monthly SSI        Projection of
                                                  Paid SSI       Payment to          Monthly SSI
                                                  Benefits        Fugitives          Payments to
                       Population    Sample     During April     During April      Fugitives During
          State           Size        Size          1999            1999              April 1999
     Alabama                244          50            16           $4,993                $24,366
     Colorado               681          50            22             8,068               109,891
     Idaho                   51          51            30           11,834                 11,834
     Illinois             2,267          50            25           10,623                481,628
     Iowa                   244          50            30           11,063                 53,987
     Maine                   70          70            34           14,001                 14,001
     Nebraska                14          14             7             2,158                  2,158
     New Mexico              23          23            14             5,925                  5,925
     Oregon               1,308          50            21             9,380               245,387
     Texas                2,814          50            24             9,809               552,056
     10 State
     Total                 7,716          458           223           $87,854         $1,501,233
                                         Projection to 46 States in Population        $6,905,671
                                                        Projection Lower Limit        $2,488,005
                                                        Projection Upper Limit       $11,323,338
                                                                              8
                              Annualized Estimate (Projection X 12 Months)           $82,868,052
                                                                              8
                                           Annualized Estimate - Lower Limit         $29,856,060
                                                                              8
                                           Annualized Estimate - Upper Limit        $135,880,056
      Note: All projections are at the 90-percent confidence level.




8
    This is a non-statistical estimate.

Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                           A-4

                                                                        Appendix B

Fugitive Matching Program Issues
We believe that computer matching with both the States and National Crime
Information Center (NCIC) is an effective method of identifying and preventing
Supplemental Security Income (SSI) payments to fugitive felons. We estimate that the
Social Security Administration (SSA) can save at least $30 million in SSI payments
annually through computer matching State fugitive files with SSA’s records. However, a
number of issues need to be addressed in order for SSA to fully implement an efficient
fugitive felon matching program. Many of these issues have already been resolved with
the NCIC fugitive match, but they still need to be overcome to ensure routine matching
with the States is effective. These issues include the following:

1. Not all States can isolate felony warrants from misdemeanors.

2. 	 Some States provided fugitive information, but would not sign the computer
     matching agreement.

3. 	 The name field in all the State files had the first name, last name, and middle name
     in a single data field. This field must be separated before SSA can verify the
     fugitive’s identity through its Enumeration Verification System.

4. 	 The date of birth field was not always in SSA’s format (“mmddyyyy” where “m” is the
     month, “d” is the day, and “y” is the year).

5. Each State’s fugitive file had a different record layout.

6. 	 The medium on which files were sent to us varied. One State e-mailed us a file,
     whereas other States sent the fugitive files on floppy disks or tape cartridges. Also,
     one State provided a paper listing of fugitives.

7. 	 The time frame from our request for the information and receipt varied. Five States
     provided the information within 2 months of our request, while other States took
     more than a year to provide the data.




Identification of Fugitives Receiving SSI Payments (A-01-98-61013)
                                                                     Appendix C


Agency Comments





Identification of Fugitives Receiving SSI Payments (A-01-98-61013)
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“IDENTIFICATION OF FUGITIVES RECEIVING SUPPLEMENTAL SECURITY
INCOME PAYMENTS” (A-01-98-61013)

We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

OIG Recommendation 1

SSA should reach agreement with the United States Department of Agriculture (USDA) to share
fugitive information.

SSA Comment

We agree in principle with this recommendation. We will contact the USDA to determine the
feasibility of coordinating our efforts. We do not have enough specific information regarding
what information the USDA-OIG maintains and the format of its files to determine whether or
not we can implement this recommendation at this time.

OIG Recommendation 2

SSA should reach agreement with State agencies, which either do not enter all fugitive data into
National CIC or provide data to the USDA, to obtain their fugitive information in an electronic
format on a routine basis.

SSA Comment

We agree. SSA has already established, in conjunction with OIG, a model matching agreement
that will facilitate the process of obtaining agreements with State and local law enforcement
agencies to share fugitive information with the agency. A letter from OIG has just been sent to a
list of State law enforcement data administrators notifying them of SSA’s intent to pursue
matching agreements for identification of fugitives receiving SSI benefits. This letter will be
followed up by additional written and personal contacts by SSA’s Regional Fugitive
Coordinators and local field office staff in the next few weeks and months. We expect to begin
receiving matching agreements, followed by data on fugitives on a regular basis, from State and
local law enforcement agencies in the months ahead.




Identification of Fugitives Receiving SSI Payments (A-01-98-61013)                        C-2
                                                                       Appendix D

OIG Contacts and Staff Acknowledgements

OIG Contacts

   Roger J. Normand, Director, Disability Program Audit Division (617) 565-1822

   Rona Rustigian, Deputy Director (617) 565-1819


Acknowledgments
In addition to those named above:
   Judith Oliveira, Auditor-in-Charge
   Katie Hallock, Auditor
   Brian Jaspon, Auditor
   Kevin Joyce, Auditor
   Joseph LoVecchio, Auditor
   David Mazzola, Auditor

For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-01-98-61013.




Identification of Fugitives Receiving SSI Payments (A-01-98-61013)
                                                                     Appendix E

SSA Organizational Chart




Identification of Fugitives Receiving SSI Payments (A-01-98-61013)
